No. 19-177

 

 

IN THE

Supreme Court of the United States

UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, ET AL.,

Petitioners,
v.
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
ETAL.,

Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Second Circuit

BRIEF OF ADVENTIST DEVELOPMENT AND
RELIEF AGENCY INTERNATIONAL AS
AMICUS CURIAE IN SUPPORT
OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,246 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 4, 2020.

Lhe

 

Colin Casey Hogan.
Wilson-Epes Printing Co., Inc.
